                 United States Government Accountability Office

GAO              Report to the Chairman, Subcommittee on
                 Federal Workforce, Postal Service, and the
                 District of Columbia, Committee on
                 Oversight and Government Reform, House
                 of Representatives
September 2008
                 DIVERSITY AT GAO

                 Sustained Attention
                 Needed to Build on
                 Gains in SES and
                 Managers




GAO-08-1098
                                                     September 2008


                                                     DIVERSITY AT GAO
              Accountability Integrity Reliability



Highlights
Highlights of GAO-08-1098, a report to the
                                                     Sustained Attention Needed to Build on Gains in SES
                                                     and Managers
Chairman, Subcommittee on Federal
Workforce, Postal Service, and the District
of Columbia, Committee on Oversight and
Government Reform, House of
Representatives

Why IG Did This Study                                What IG Found
GAO, like other federal agencies,                    Overall, GAO made gains in the representation of women and minorities in
faces challenges in increasing                       both its SES and manager (GS-15) ranks, and equivalent positions, between
diversity in its workforce, including                fiscal years 2002 and 2007. Furthermore, the agency’s SES and managers in
top leadership. Because of your                      fiscal year 2007 were generally more diverse in comparison with executive
interest in the effectiveness of                     branch agencies and the civilian labor force. Top management has made a
diversity offices and the
underrepresentation of women and
                                                     commitment to increasing the diversity of its workforce and has implemented
minorities in legislative branch                     many leading diversity management practices. GAO has taken steps to
agencies, you asked GAO’s                            identify, examine and address potential barriers to the hiring and
Inspector General (IG) to (1)                        advancement of women and minorities. Last year, the agency began work to
determine whether GAO’s diversity                    examine disparities in the average ratings between African-American and
efforts are achieving better                         Caucasian analysts, including those at the manager level. In June 2008, GAO
representation of women and                          issued its congressionally mandated Workforce Diversity Plan, which
minorities in top leadership, (2)                    analyzed the demographic composition of the agency’s entire workforce and
evaluate the accuracy and                            identified potential barriers to the advancement and hiring of minorities. As a
completeness of GAO’s fiscal year                    result, GAO has baseline data to assess its future diversity efforts and an
2007 complaint and discrimination                    action plan for the next year to address gaps in minority representation. The
data, and (3) assess the
independence and reporting
                                                     Acting Comptroller General intends for the agency to annually prepare this
relationship of the head of GAO’s                    plan, which will provide critical information for diversity management.
Office of Opportunity and
Inclusiveness (OOI).                                 GAO’s fiscal year 2007 complaint and discrimination data in GAO’s March
                                                     2008 report to Congress included errors. For example, the report showed one
In response, GAO’s IG reviewed                       complaint and one complainant more than were found in GAO’s files. Also,
relevant orders, documents, and                      we could not verify the reported average annual number of days for
data and interviewed officials at                    processing complaints. Moreover, we found that, earlier this year, GAO did
GAO and GAO’s Personnel Appeals                      not include accurate fiscal year 2007 complaint data on its Web site, as
Board (PAB)—the adjudicative                         required by law. Rather, GAO posted first quarter fiscal year 2008 complaint
body for GAO employees who                           data as if it were the full year data for fiscal 2007. GAO has corrected the data
appeal agency equal employment
opportunity-related (EEO)
                                                     and posted the updated data to both its Web site and intranet. These errors
decisions—and other parties.                         were primarily the result of how GAO tracks complaints and other insufficient
                                                     internal controls over the compilation and reporting of data.
What IG Recommends
                                                     GAO voluntarily follows two of three Equal Employment Opportunity
To improve diversity in SES and                      Commission requirements for executive branch agencies regarding the
manager ranks, the IG recommends                     independence and reporting relationships of EEO office heads. At GAO, the
GAO establish a formal policy to                     head of OOI reports directly to GAO’s chief executive—the Comptroller
annually produce a Workforce                         General—and conducts legal reviews of the agency’s final decisions on
Diversity Plan to more effectively
manage its diversity activities. To
                                                     complaints independent of GAO’s in-house legal staff. Regarding the third
accurately report on complaint                       requirement, GAO’s PAB has raised concerns about the involvement of OOI’s
data, GAO should revise relevant                     head in both complaint processing and diversity efforts. PAB is concerned
orders, procedures, and internal                     this is a potential conflict of interest and has recommended that GAO create a
controls. GAO generally agreed                       separate unit solely to process complaints. GAO management has not
with the recommendations in our                      adopted PAB’s recommendation, saying it is not an efficient use of resources,
draft.                                               given the low number of formal EEO complaints OOI processes and the
                                                     outsourcing of its complaint investigations. The scope of this review did not
To view the full product, including the scope
and methodology, click on GAO-08-1098.
                                                     include a detailed analysis of OOI to determine what effect, if any, the
For more information, contact Frances Garcia         consolidation of these functions has had on complaint processing.
at (202) 512-5748 or garciaf@gao.gov.
                                                                                             United States Government Accountability Office
Contents


Letter                                                                                          1
                       Results in Brief                                                         2
                       Background                                                               4
                       GAO Has Improved Diversity, and Information from Annual
                          Diversity Plans Will Help to Manage Future Progress                   5
                       Fiscal Year 2007 Complaints and Discrimination Data Contained
                          Errors                                                              13
                       Concerns Continue about Integration of Discrimination Complaint
                          Processing and Diversity Efforts                                    16
                       Conclusions                                                            18
                       Recommendations for Executive Action                                   19
                       Agency Comments and the IG’s Evaluation                                19

Appendix I             Objectives, Scope, and Methodology                                      21



Appendix II            Selected PAB EEO Oversight Reports                                      23



Appendix III           Status of Nine Expert-Identified Best Leading
                       Diversity Practices at GAO                                              24



Appendix IV            Comments from the Office of the Comptroller
                       General of the United States                                            25



Appendix V             IG Contact and Staff Acknowledgments                                    29



Related GAO Products                                                                           30




                       Page i                                        GAO-08-1098 Diversity at GAO
Tables
          Table 1: Comparison of Correct and Reported Complaint Data for
                   Fiscal Year 2007                                              14
          Table 2: Comparison of Fiscal Year 2007 Basis of Complaints, by
                   Source of Data                                                14
          Table 3: Comparison of Correct Data with Data Inaccurately
                   Posted to GAO’s Web Sites for Fiscal Year 2007                16


Figures
          Figure 1: Comparison of Percentage of Women and Minorities in
                   GAO’s Senior Executive Service and at Manager Level
                   with Executive Branch Agencies and Civilian Labor Force,
                   Fiscal Year 2007                                                6
          Figure 2: Number of Men and Women in GAO’s SES, Fiscal Years
                   2002-2007                                                       7
          Figure 3: Number of Minority SES Members at GAO, Fiscal Years
                   2002-2007                                                       8
          Figure 4: Number of Minority Managers at GAO, Fiscal Years 2002-
                   2007                                                            9
          Figure 5: Percentage of Minorities in GAO’s SES Candidate
                   Program Since October 2002                                    10




          Page ii                                       GAO-08-1098 Diversity at GAO
Abbreviations

EEO               equal employment opportunity
EEOC              Equal Employment Opportunity Commission
GC                Office of General Counsel
IG                Inspector General
NAPA              National Academy of Public Administration
No FEAR Act       Notification and Federal Employee Antidiscrimination and
                  Retaliation Act
OOI               Office of Opportunity and Inclusiveness
OPM               Office of Personnel Management
PAB               Personnel Appeals Board
SES               Senior Executive Service




This is a work of the U.S. government and is not subject to copyright protection in the
United States. The published product may be reproduced and distributed in its entirety
without further permission from GAO. However, because this work may contain
copyrighted images or other material, permission from the copyright holder may be
necessary if you wish to reproduce this material separately.




Page iii                                                   GAO-08-1098 Diversity at GAO
United States Government Accountability Office
Washington, DC 20548




                                   September 10, 2008

                                   The Honorable Danny K. Davis
                                   Chairman
                                   Subcommittee on Federal Workforce,
                                     Postal Service, and the District of Columbia
                                   Committee on Oversight and Government Reform
                                   House of Representatives

                                   Dear Mr. Chairman:

                                   In today’s multicultural workforce, diversity can be an organizational
                                   strength that can bring a wide variety of perspectives and approaches to
                                   bear on policy development and implementation, strategic planning,
                                   problem solving, and decision making. Organizations that promote and
                                   achieve a diverse workplace can attract and retain high-quality employees.
                                   GAO, similar to other federal agencies, faces both opportunities and
                                   challenges in increasing the diversity of its top leadership and workforce.

                                   Because of your interest in the effectiveness of diversity program offices
                                   and the underrepresentation of women and minorities in legislative branch
                                   agencies, you asked us to (1) determine whether GAO’s diversity programs
                                   and initiatives are achieving better representation of women and
                                   minorities in the agency’s Senior Executive Service (SES) and managerial
                                   ranks (GS-15), and their equivalents;1 (2) evaluate the accuracy and
                                   completeness of the fiscal year 2007 complaint and discrimination data
                                   reported to Congress;2 and (3) assess the independent authority and
                                   reporting relationships of the Managing Director of GAO’s Office of
                                   Opportunity and Inclusiveness (OOI).




                                   1
                                    In GAO, SES positions and their equivalents are SES, Senior Level, and executive schedule
                                   positions. GAO has few actual GS-15 positions; their equivalents within GAO’s pay systems
                                   are Band III analysts and specialists (Assistant Directors), Level II managerial and
                                   supervisory positions, Level-IV professional technical specialists, and Band III attorneys
                                   (equivalent to Band II Attorneys in 2002-2004).
                                   2
                                    In accordance with the Notification and Federal Employee Antidiscrimination and
                                   Retaliation Act of 2002 (No FEAR Act), P.L. 107-174, GAO is required to (1) annually report
                                   information related to discrimination, harassment, and related matters and (2) post
                                   quarterly updates of these data on its Web site.



                                   Page 1                                                     GAO-08-1098 Diversity at GAO
                   To address the first objective, we identified and compared GAO’s diversity
                   management practices against those identified by the U.S. Equal
                   Employment Opportunity Commission (EEOC) Management Directive 715
                   (MD-715) and nine expert-identified leading diversity management
                   practices. In addition, we analyzed fiscal years 2002 through 2007 data on
                   the number of women and minorities in SES and managerial positions, and
                   their equivalents. To address the second objective, we reviewed relevant
                   GAO orders and procedures, including those on processing discrimination
                   complaints and internal controls regarding data quality. We also analyzed
                   supporting documentation for the fiscal year 2007 data that GAO reported
                   to Congress and interviewed key staff and managers. To address the third
                   objective, we examined GAO’s organizational structure, policies, and
                   procedures; reviewed related reports; and interviewed officials in GAO’s
                   Personnel Appeals Board (PAB), OOI, and General Counsel. Appendix I
                   further discusses our scope and methodology. We conducted our work
                   from March 2008 to September 2008 in accordance with generally
                   accepted government auditing standards. Those standards require that we
                   plan and perform the audit to obtain sufficient, appropriate evidence to
                   provide a reasonable basis for our findings and conclusions based on our
                   audit objectives. We believe that the evidence obtained provides a
                   reasonable basis for our findings and conclusions based on our audit
                   objectives.


                   Between fiscal years 2002 and 2007, GAO increased the diversity of both
Results in Brief   its SES and managerial ranks. Moreover, GAO’s SES and managers in
                   fiscal year 2007 were generally more diverse in comparison with executive
                   branch agencies and the civilian labor force. Our work shows that the
                   agency uses a number of leading diversity management practices to
                   recruit, hire, promote, and retain its employees. The agency’s top
                   management has made a commitment to diversity management. In
                   addition, the agency has taken recent steps to identify and address
                   potential barriers to the advancement and hiring of women and minorities.
                   Last year, the agency contracted for a study to examine the disparity in
                   average ratings for African-American and Caucasian analysts. This
                   disparity can be a barrier for the advancement of African-Americans to the
                   SES and manager ranks. In June 2008 GAO issued its congressionally
                   mandated Workforce Diversity Plan, which assessed the representation of
                   women, minorities, and people with disabilities throughout the agency.
                   The agency used MD-715 as a guide in developing the plan. GAO found
                   representational gaps in the SES, the manager level in certain job
                   categories, and recent applicants for the SES candidate program. In
                   response, the agency is planning to target efforts on the areas of greatest


                   Page 2                                          GAO-08-1098 Diversity at GAO
underrepresentation, such as Hispanics, at all levels in the agency.
According to the Acting Comptroller General, GAO intends to annually
prepare these plans, which will provide the agency with information on
representational gaps, identify areas where barriers (agency policies,
procedures, or practices) may operate to exclude certain groups, and the
overall effectiveness of its diversity efforts.

We found errors in GAO’s March 2008 annual report to Congress and its
Web posting of complaint and discrimination data reported for fiscal year
2007. For example, although agency documents show that six employees
filed complaints, GAO reported seven in its annual report. In addition, we
could not verify the reported average number of days that GAO spent
processing complaints. We also found problems with fiscal year 2007
complaint data that GAO posted on its Web sites. Specifically, GAO
inadvertently posted the wrong data as fiscal year 2007 data. In general,
the errors were the result of inadequate procedures for compiling and
reporting all complaints and the agency not making full use of its
electronic complaint software. As a result of our review, OOI has revised
the fiscal year 2007 data posted to its Web site and plans to take steps to
address other problems we identified.

Although GAO is not required to comply with EEOC management
directives to executive branch agencies, it has followed two of the three
requirements related to independent authority and reporting relationships
for the head of the agency’s equal employment opportunity (EEO) office.
We did identify a concern about the third requirement—the consolidation
of personnel-related and discrimination complaint functions in one office.
GAO’s OOI Managing Director is responsible for processing discrimination
complaints and taking an active role in diversity programs, which could be
the subject of a discrimination complaint. GAO’s PAB, which oversees the
agency’s EEO activities, believes this situation potentially leaves the
managing director open to charges of conflict of interest. PAB has
recommended that GAO separate these two administrative functions and
create a unit exclusively for processing discrimination complaints—a
position consistent with an EEOC management directive.3 GAO
management has not agreed to implement this recommendation, in part
because the agency believes it would result in an inefficient use of
resources given the small number of formal discrimination complaints



3
EEOC, Equal Employment Opportunity Management Directive 110, Federal Sector
Complaints Processing Manual (Nov. 9, 1999).




Page 3                                               GAO-08-1098 Diversity at GAO
             filed each year. However, the annual number of formal complaints only
             partially reflects the office’s workload. For example, in fiscal year 2007,
             while GAO employees filed 15 formal discrimination complaints, about 130
             GAO employees informally contacted OOI about their concerns of unfair
             treatment. The scope of this review did not include a detailed analysis of
             OOI to determine what, if any, effect the consolidation of these functions
             has had on complaint processing.


             GAO, a legislative branch agency, performs a wide range of evaluative and
Background   related work. It conducts audits and evaluations of executive branch
             agencies, resolves disputes over awards of government contracts, and sets
             auditing and accounting standards for the federal government. The agency
             has a highly educated, multidisciplinary workforce of around 3,100
             employees who work in Washington, D.C., and 11 field offices. It employs
             analysts, auditors, economists, lawyers, and other professionals, and more
             than half of the workforce has master’s or doctoral degrees.

             The GAO Personnel Act of 1980 gave the agency its own personnel system,
             separate from that of the executive branch, and it increased the agency’s
             flexibility in hiring, paying, and managing its workforce. As a result, GAO
             was one of the first federal agencies to establish “broad banding,” or “pay
             banding.” The act also created PAB, a body independent from GAO
             management, to hear GAO employee issues related to discrimination and
             prohibited personnel actions and to conduct oversight of EEO programs.
             (See app. II for a list of selected PAB oversight reports.) Prior to the act,
             GAO employees alleging either employment discrimination or violations of
             the merit systems principles filed suits with the EEOC or the Merit
             Systems Protection Board, respectively.

             In the past decade, GAO has taken steps toward diversity management,
             which aims to create and maintain a positive work environment where the
             similarities and differences of individuals are valued, so that all can reach
             their potential and maximize their contributions to an organization’s
             strategic goals and objectives. In 2001, GAO created OOI and gave the
             office responsibility for helping to create a fair and inclusive work
             environment by incorporating diversity principles in GAO’s strategic plan
             and throughout its human capital policies and programs, as well as
             handling discrimination complaints. OOI manages the agency’s EEO
             program, including informal precomplaint counseling and the formal
             discrimination complaint process. In addition, it monitors the
             implementation of GAO’s disability policy and oversees the management
             of GAO’s interpreting service for deaf and hard-of-hearing employees.


             Page 4                                            GAO-08-1098 Diversity at GAO
                     GAO also has adopted strategic planning and has a 5-year strategic plan for
                     the agency as a tool to meet its long-term goals and objectives.4 One of the
                     agency’s four strategic goals is to maximize the value of GAO by being a
                     model federal agency and a world-class professional services organization,
                     in part by leading strategically to achieve results and being an employer of
                     choice with an environment that is fair and unbiased and that values
                     opportunity and inclusiveness.


                     GAO has made progress in building a more diverse profile of its SES and
GAO Has Improved     managerial ranks. Moreover, as shown in figure 1, GAO’s leadership is
Diversity, and       generally more diverse in comparison with executive branch agencies and
                     the civilian labor force.5 At the same time, gaps remain in the
Information from     representation of women and minorities in the agency’s leadership. GAO’s
Annual Diversity     June 2008 Workforce Diversity Plan has identified low representation of
                     African-American women, Asian-Americans,6 Hispanics, and the disabled
Plans Will Help to   among its SES and managers. The agency has a variety of leading diversity
Manage Future        management practices to help reshape its workforce. The challenge facing
Progress             GAO is to strategically manage its efforts to efficiently and effectively
                     achieve greater diversity in its leadership. The Acting CG has stated that
                     the agency intends to annually prepare a diversity plan in the spirit of
                     EEOC’s MD-715 guidance, which will provide the agency with information
                     essential to effectively and efficiently managing its diversity efforts.




                     4
                         GAO, GAO Strategic Plan 2007-2012, GAO-07-1SP (Washington, D.C.: March 2007).
                     5
                      The civilian labor force is defined as those 16 and older (including the federal workforce),
                     regardless of citizenship, who are employed or looking for work and are not in the military
                     or institutionalized. A minimum age of 18 is required for most federal employment.
                     6
                     For purposes of this report, we are using the term Asian-American to include employees
                     who identify their ethnicity and race as Asian, Native Hawaiian, or other Pacific islander.




                     Page 5                                                       GAO-08-1098 Diversity at GAO
Figure 1: Comparison of Percentage of Women and Minorities in GAO’s Senior Executive Service and at Manager Level with
Executive Branch Agencies and Civilian Labor Force, Fiscal Year 2007

SES and equivalents                                                                                            Managers (GS-15 and equivalents)

Percentage                                                                                                     Percentage
 50                                                                                                            50
                  45.7                                                                                              45.6          45.7
 45 42.9                                                                                                       45

 40                                                                                                            40

 35                                                                                                            35
                                                                                                                           31.4
           29.1
 30                                                                                                            30

 25                                                                                                            25

 20                                                                                                            20

 15                                                                                                    13.3    15                                                                                              13.3
                           11.1           10.1                                                                                             10.6
                                    8.5                                                                                                                   10.1
 10                                                                                                            10                                   7.7                                  7.8
                                                                     4.8          4.3            3.6                                                                                           4.3   4.4 4.1
  5                                                                         2.3                                 5                                                                  3.5
                                                      1.3 0.7                             1.6
                                                  0                                                                                                              0    0.9 0.7
  0                                                                                                             0




                                                                                                                                                                     ati /
                                                     ati /
                                 an




                                                                                                                                                                  a N ian
                                                                           an




                                                                                                                                               an




                                                                                                                                                                                         an
        en




                                                                                                nic




                                                                                                                           en
                                                  a N ian




                                                                                                                                                                                                        nic
                                                                                                                                                                        ve
                                                        ve
                                ric




                                                                          ric




                                                                                                                                              ric




                                                                                                                                                                                      ric
         m




                                                                                                                          m




                                                                                                                                                                sk Ind
                                                                                            pa
                                                sk Ind




                                                                                                                                                                                                        pa
      Wo




                                                                                                                       Wo
                               me




                                                                     me




                                                                                                                                           me




                                                                                                                                                                                    me
                                                                                          His




                                                                                                                                                                                                     His
                                                                                                                                                             Ala can
                                             Ala can
                           -A




                                                                     -A




                                                                                                                                         -A




                                                                                                                                                                                  -A
                          an




                                                                ian




                                                                                                                                         an




                                                                                                                                                                               ian
                                                                                                                                                              eri
                                              eri
                         ric




                                                                                                                                     ric




                                                                                                                                                            Am
                                           Am




                                                                As




                                                                                                                                                                             As
                     Af




                                                                                                                                    Af




                                                                                        GAO

                                                                                        Executive branch agencies

                                                                                        Civilian labor force

                                                                            Source: IG analysis of GAO and OPM data.




                                                                           Page 6                                                                                     GAO-08-1098 Diversity at GAO
GAO Has Made Gains in     Between fiscal years 2002 and 2007, GAO increased the number of women
Overall Diversity and     in its SES from 45 to 54, or 20 percent, as figure 2 shows. As a proportion
Faces Future Challenges   of the SES, women went from 34 percent to 43 percent.

                          Figure 2: Number of Men and Women in GAO’s SES, Fiscal Years 2002-2007

                          Number in SES
                          100

                              90    88
                                                        85
                                                                         82
                              80                                                      75
                                                                                                            72            72
                              70

                              60
                                                                                                                                54
                                                                                 52               52
                                                                                                                    49
                              50            45                      47

                              40

                              30

                              20

                              10

                               0
                                         2002                2003         2004             2005                  2006          2007
                                   Fiscal year

                                            Men

                                            Women

                          Source: IG analysis of GAO data.



                          During this same time, GAO had mixed success in increasing the number
                          of minorities in the SES, as shown in figure 3. The agency had a slight
                          increase in the number of African-Americans (from 12 to 14) but a
                          decrease in the number of Asian-Americans (from 8 to 6) and Hispanics
                          (from 4 to 2).7 In GAO’s June 2008 Workforce Diversity Plan, the agency
                          reported that the percentages of African-American and Asian-American
                          females in the SES have not increased at the same rate as their respective
                          percentages in the agency’s overall workforce. Moreover, the agency
                          reported no representation of individuals with targeted disabilities or




                          7
                           Hispanics are underrepresented throughout the federal government when compared with
                          the U.S. civilian labor force, according to OPM.




                          Page 7                                                                       GAO-08-1098 Diversity at GAO
American Indians/Alaska Natives in its SES. 8 EEOC considers a low
representational rate to be a benchmark or indicator of potential barriers
to equal participation at all levels in a federal agency that requires further
study.9

Figure 3: Number of Minority SES Members at GAO, Fiscal Years 2002-2007

Number of minority SES
15
                                                       14              14               14


          12                 12       12
12



                                       9
    9
           8                   8
                                                       7                7

                                                                                        6
    6

           4                  4
                                       3
    3
                                                       2                                2
                                                                        1

    0
         2002                2003    2004            2005             2006            2007

        Fiscal year
                 African-American
                 Asian-American
                 Hispanic
Source: IG analysis of GAO data.




At the manager level during this same time, GAO increased the numbers of
women and minorities. The manager level is the developmental or “feeder”
pool for the SES. As with the SES, women made the largest gains,
increasing their representation from 39 percent of the managers to 46



8
 Targeted disabilities are deafness, blindness, missing extremities, partial paralysis,
complete paralysis, convulsive disorders, mental retardation, mental illness, and distortion
of limb or spine.
9
 EEOC defines barrier as an agency policy, principle, or practice that limits or tends to limit
employment opportunities for a particular sex, race, or ethnic background or because of an
individual’s disability status.




Page 8                                                       GAO-08-1098 Diversity at GAO
percent. The increases in minority representation were smaller but
generally steady, as figure 4 shows.

Figure 4: Number of Minority Managers at GAO, Fiscal Years 2002-2007

Number of minority managers
70                                                                   66
                                       64             63                           63

60
                              55
         52
50


40


30                                                                                 26
                                       21             20             22
20       17                   18                                                   21
                                                                     20
                                       17             17
         15                   15
10

          1                   1        0                             0             0
                                                      0
 0
        2002                 2003     2004           2005           2006         2007
       Fiscal year
               African-American
                Hispanic
               Asian-American
               Native American
Source: IG analysis of GAO data.



At the manager level, GAO recently reported low percentages for Hispanic
females, African-American males, and Asian-American females among
Band III analysts. The agency also reported having no African-Americans,
Asian-Americans, or Hispanics in certain manager-level administrative and
professional-manager job categories.10

GAO’s SES candidate program has a significant effect on the diversity of
the SES because the agency uses it to promote many managers into the
SES ranks. For entry into the program, the agency uses a competitive
selection process that is open to both internal and external candidates at
the manager level. Participation in the program lasts about 18 months and


10
     GAO, Workforce Diversity Plan (Washington, D.C.: June 2008).




Page 9                                                      GAO-08-1098 Diversity at GAO
includes special training and different work experiences to develop
executive competencies. Upon successful completion of the program,
candidates can gain an SES position without further competition. Since
October 2002, women have composed 22 (or 42 percent) of the 52 total
program participants. Minorities have composed 8 (or 15 percent) of all of
the participants, although there were no American Indians/Alaska Natives.
In addition, as figure 5 shows, the percentage of minorities in the classes
has fluctuated—from a high of 27 percent in 1 year to a low of 9 percent in
the September 2007 class.

Figure 5: Percentage of Minorities in GAO’s SES Candidate Program Since October
2002

Percentage
30
                                    27


24
                      22



18



12
        10
                                           9      9


 6



 0
       2002         2003           2005   2006   2007
     Year SES candidate class started

               Asian-American

               Hispanic

               African-American
Source: IG analysis of GAO data.


In June 2008, GAO reported that no Asian-Americans, Hispanic males, or
African-American females applied for the September 2007 class of the SES
candidate program. The Managing Director of OOI said that the low
representation of minorities among recent applicants demonstrates that
without constant vigilance, progress could be lost, even though the agency
has generally been successful at attracting minorities to its SES candidate
program.



Page 10                                                 GAO-08-1098 Diversity at GAO
                            In the short term, this program has the potential to help GAO obtain a
                            larger pool of diverse candidates for the SES because it accepts applicants
                            from both inside and outside the agency. In recent years, the agency has
                            hired two external applicants for this program. According to agency
                            officials we interviewed, past experience has shown that external
                            candidates often face an additional challenge of assimilating into GAO’s
                            SES culture, which is steeped in audit methodology and practices, while at
                            the same time they must lead staff who are knowledgeable about these
                            practices and procedures.

                            GAO also directly hires employees at the SES and manager level. Direct
                            hiring has an effect on diversity, and in the short term, the hiring of
                            women and minorities could help improve diversity at these levels.
                            Between October 2002 and May 2008, GAO hired a total of 67 individuals at
                            the SES and manager level. Of these, 10 (15 percent) were minority men
                            and women and 21 (31 percent) were Caucasian females.

                            In its EEO oversight role, PAB has recommended that GAO review its SES
                            selection process, including the SES candidate program, to determine
                            whether any barriers may be having a negative effect on representation. In
                            response, the agency has stated that it regularly reviews the SES selection
                            processes and discusses how it can attract a greater diversity of
                            applications, including recruitment sources and advertising with special
                            interest groups.


GAO Uses Leading            GAO has in place many of the leading diversity management practices
Practices, and Annual       identified in EEOC’s MD-715 guidance for a model EEO program11 and in a
Diversity Plans Can         GAO study of expert-identified leading diversity management practices.12
                            (See app. III for a table showing the status of GAO’s implementation of the
Provide Essential           nine expert-identified practices.) For example, GAO’s top executives,
Information for Effective   including the current Acting Comptroller General and former Comptroller
Management                  General, have made a commitment to diversity management—a best
                            practice identified by both the EEOC and diversity management experts.
                            Diversity management is a regular item on the agenda at periodic meetings
                            of GAO’s SES. Furthermore, GAO has taken recent action that will identify



                            11
                                 EEOC, MD-715 Section I: The Model EEO Program.
                            12
                             GAO, Diversity Management: Expert-Identified Leading Practices and Agency
                            Examples, GAO-05-90 (Washington, D.C.: Jan. 14, 2005).




                            Page 11                                               GAO-08-1098 Diversity at GAO
representational gaps and eliminate unnecessary barriers to hiring and
advancement of women, minorities, and people with disabilities.

In accordance with a leading practice, GAO has made diversity part of its
5-year strategic plan, which sets out the agency’s long-term goals and
objectives.13 One of the agency’s four strategic goals is to maximize the
value of GAO by being a model federal agency and world-class
professional services organization. One objective for this goal is to be an
employer of choice with an environment that is fair and unbiased and that
values opportunity and inclusiveness. In addition, GAO has incorporated
diversity management in the performance appraisal systems for its SES
and other supervisors, as well as adopted mediation to voluntarily resolve
complaints of discrimination. Moreover, as part of an ongoing effort to
involve employees in its diversity management, the agency recently
created a Diversity Committee with representatives from all employee
groups, such as Blacks In Government, the Advisory Council for Persons
with Disabilities, the Asian American Liaison Group, the Gay and Lesbian
Employees Association, the Hispanic Liaison Group, and the International
Federation of Professional and Technical Engineers. The committee’s
purpose is to foster opportunities for dialogue between GAO management
and staff by seeking and conveying the views and concerns of individual
diversity groups. The committee’s members will comment on new or
revised GAO policies, procedures, plans, and practices pertaining to
diversity issues.

While GAO has improved the diversity of its SES and managerial ranks and
uses many leading diversity management practices, the agency has not had
a process for developing essential information on a regular basis to
effectively manage its diversity efforts. However, in June 2008 GAO issued
its Workforce Diversity Plan, as requested in the committee report for the
legislative branch appropriations bill for fiscal year 2008.14 Executive
branch agencies are required to do this plan annually. In developing its
plan, GAO used EEOC’s MD-715—the same guidance executive branch
agencies are required to use—although GAO is not required to follow it. In
accordance with EEOC MD-715, GAO analyzed workforce data to assess
demographic trends and to determine whether there were differences in


13
     GAO-07-1SP.
14
 U.S. House of Representatives, Subcommittee on Legislative Branch, Committee on
Appropriations, Legislative Branch Appropriations Bill, 2008, H.R. 110-198, 110th Cong.,
1st sess. (June 19, 2007). The subcommittee report requested an affirmative action plan.




Page 12                                                   GAO-08-1098 Diversity at GAO
                      the representation of minorities in the agency’s workforce when compared
                      with the appropriate benchmarks.15 As a result, the agency now has
                      baseline data on the diversity of its workforce. In addition, it has identified
                      a number of potential barriers that may impede fair and open competition
                      in the workplace. The plan also includes the GAO’s 2008-2009 Workforce
                      Diversity Action Plan, which lists three broad goals: (1) recruit more
                      Hispanics, African-Americans, and staff with disabilities; (2) enhance staff-
                      development opportunities that prepare staff for upper-level positions; and
                      (3) create a more inclusive environment. While the action items are short-
                      term activities, such as developing a diversity recruitment and hiring plan
                      by April 2009, some could lead to long term changes that affect diversity.

                      In addition, the agency awarded last year a contract to assess the factors
                      that may explain statistically significant differences in rating averages
                      between African-American and Caucasian analysts from 2002 to 2006. A
                      final report was issued on April 25, 2008, and it included more than 25
                      recommendations. Within a week, the Acting Comptroller General issued a
                      memorandum to employees expressing his commitment to address the
                      report’s recommendations. GAO has already undertaken steps to
                      implement some of the recommendations and to establish a plan to
                      implement other recommendations.


                      The Notification and Federal Employee Antidiscrimination and Retaliation
Fiscal Year 2007      Act (No FEAR Act) of 2002 requires GAO to provide data on its complaints
Complaints and        and discrimination cases annually in a report to Congress and to post
                      updates of current fiscal year data on its Web site. In the annual report, we
Discrimination Data   found errors in the fiscal year 2007 data for the number of complaints, the
Contained Errors      number of GAO employees who filed complaints, and the basis of the
                      complaints (such as race, gender, and religion). We also could not verify
                      the fiscal year 2007 data reported for complaint processing times. In
                      addition, when GAO posted complaint data earlier this year on its intranet
                      and Web site, it inadvertently published the wrong data for fiscal year
                      2007.16 We determined that these and other errors largely resulted from
                      insufficient controls over the compilation and reporting of the data,
                      including not making full use of its electronic complaint software.



                      15
                           EEOC, MD-715 Section II: Barrier Identification and Elimination.
                      16
                       In addition to posting No FEAR Act data to its Web site, GAO also publishes the quarterly
                      data on its intranet for employee access.




                      Page 13                                                    GAO-08-1098 Diversity at GAO
In its March 2008 annual report, GAO had errors in fiscal year 2007
complaints and discrimination data. Table 1 shows a comparison of
correct data to data included in GAO’s annual report regarding the number
of complainants, complaints, and repeat filers—those who have previously
filed a complaint.

Table 1: Comparison of Correct and Reported Complaint Data for Fiscal Year 2007

 Type of data                                       Correct data       Data in GAO annual report
 Complainants                                                 6                                    7
 Complaints                                                  15                                16
 Repeat filers                                                2                                    2
Source: IG analysis of GAO information.


The annual report also contains errors related to the basis, or nature, of
the complaint, as shown in table 2. For example, the annual report
overstates by two the number of complaints based on religion, while it
understates by eight the number of complaints based on reprisals.

Table 2: Comparison of Fiscal Year 2007 Basis of Complaints, by Source of Data

                                                                    Data in GAO
 Basis of complaint                       Correct data             annual report      Difference
 Race                                               2                         1                1
 Color                                              1                         1                0
 Religion                                          10                        12               -2
 Reprisal                                          14                         6                8
 Sex                                                2                         2                0
 National origin                                    1                         1                0
 Equal Pay Act                                      0                         0                0
 Age                                                4                         4                0
 Disability                                         2                         2                0
 Non-EEO                                            0                         0                0
Source: IG analysis of GAO information.


We traced the reasons for the errors in the annual report back to
insufficient internal controls to ensure the accuracy and completeness of
the data. For example, in developing the data, the responsible person did
not include all of the complaints or all of the information about the




Page 14                                                                GAO-08-1098 Diversity at GAO
complaints processed. Part of the problem involved complaints that OOI
did not process because they were filed against a person within OOI.17 We
found that OOI did not have procedures on how to track complaints
processed outside of OOI or how to report on such complaints for
purposes of the No FEAR Act. In addition, the agency had no written
procedures regarding the development and verification of the data to
ensure completeness and accuracy, and we did not find any indication in
the records we reviewed that the person’s work had been verified or
reviewed by a supervisor.

Furthermore, we could not verify the processing times for fiscal year 2007
complaints in the annual report. We found that OOI, the unit responsible
for developing complaint data, does not have written procedures for
calculating and verifying the average number of days that complaints were
in the investigation stage and awaiting final action by the agency. To
compute these processing times, OOI staff used an informal process and
manually did the calculations. However, we could not verify the
calculations because the person who made the calculations had little
experience in this area, and the records of their calculations were
incomplete. In addition, OOI did not make full use of its electronic
complaint tracking software, which has the capabilities to track and
determine complaint processing times, because of past difficulties in using
the software. GAO specifically purchased this software 5 years ago to
improve the accuracy of its complaint data. In response to these findings,
the agency is planning to revise its procedures to improve the accuracy of
processing times, including making full use of this software.

We also found that GAO inadvertently posted on its intranet and Web site
the wrong data for fiscal year 2007. The posted data—which were for the
first quarter of fiscal year 2008—were different from the correct data. As
shown in table 3, the posted data understated the number of complainants
by 4, the number of complaints by 13, and the number of multiple filers by
2. The posted data also included errors regarding the basis of complaints
and the complaint processing times.




17
   As set forth in GAO’s discrimination complaint resolution process order, generally GAO
employees are to file discrimination complaints with OOI, which processes them. For
complaints filed against OOI staff or management, the order provides for a GAO top
executive to assign such complaints to other GAO managers, so that they may process the
complaints instead of OOI, as occurred in fiscal year 2007.




Page 15                                                   GAO-08-1098 Diversity at GAO
                        Table 3: Comparison of Correct Data with Data Inaccurately Posted to GAO’s Web
                        Sites for Fiscal Year 2007

                         Type of data                             Correct data   Inaccurate Web-posted data
                         Complainants                                       6                              2
                         Complaints                                        15                              2
                         Multiple filers                                    2                              0
                        Source: IG analysis of GAO information.


                        The errors in the quarterly postings resulted from a combination of
                        factors. First, internal controls were not adequate to ensure that posted
                        data were accurate. Second, the responsible staff who had little
                        experience with the No FEAR Act data said that they were confused by the
                        act’s language and reporting format, which the EEOC developed for use by
                        executive branch agencies, and made errors because of their confusion.
                        Third, OOI has continued to rely on a manual paper-based process for
                        tracking and reporting all complaints and have made limited use of its
                        electronic complaints tracking software. The manual process made it
                        harder to accurately track the number of complaints and to determine
                        processing times. As a result of our work, OOI has posted to its intranet
                        and Web site the correct data for fiscal year 2007 and plans to revise its
                        procedures for other problems we have identified.

                        To ensure the fair and impartial processing of discrimination complaints,
Concerns Continue       EEOC’s guidance on the federal sector EEO process for executive branch
about Integration of    agencies has three requirements regarding the reporting relationship and
                        independence of the heads of agency EEO offices.18 Although GAO is not
Discrimination          required to follow EEOC’s guidance, it adheres to two of the three
Complaint Processing    requirements. Concerns have been expressed about the agency not
                        following the third recommendation—keeping the EEO functions separate
and Diversity Efforts   from the personnel function. PAB, in its EEO oversight capacity of GAO,
                        has recommended that the agency create a separate unit solely to process
                        discrimination complaints.

                        EEOC’s Management Directive 110, among other things, has three
                        requirements for the head of agency EEO offices regarding reporting
                        relationships and independence. First, to underscore the importance of
                        equal employment opportunity to an agency’s mission and to ensure that
                        the EEO Director is able to act with the greatest degree of independence,


                        18
                             EEOC, Management Directive 110.




                        Page 16                                                   GAO-08-1098 Diversity at GAO
it requires that the EEO Director report directly to the head of the agency.
Second, to enhance the credibility of the EEO office and the integrity of
the EEO complaints process, it requires that the EEO fact-finding function
in general, and the legal sufficiency reviews of final agency decisions for
discrimination complaints in particular, not be done by attorneys in a unit
that represents or defends the agency in such disputes. Third, to maintain
the integrity of the EEO investigative and decision-making processes, the
guidance requires that the EEO functions, especially investigations and
decision making, must be kept separate from the personnel function to
avoid conflicts of position or conflicts of interest, as well as the
appearance of such conflicts.

We found no problems with two requirements. The OOI Managing Director
reports directly to the Comptroller General, the head of GAO. In addition,
the OOI Managing Director, who is an attorney, does legal sufficiency
reviews of final agency decisions and arranges for independent
investigations. For the small number of complaints that OOI staff have not
directly processed, GAO’s Chief Administrative Officer assigns a manager
to act on OOI’s behalf, while General Counsel assigns an attorney who is
not in GAO’s Legal Services unit to assist the manager. Legal Services is
part of GAO’s Office of General Counsel and serves as the agency’s in-
house legal counsel and represents the agency in legal disputes.

PAB has reported about the potential for a real or apparent conflict of
interest because the OOI Managing Director is responsible for overseeing
discrimination complaints while having a substantial role in GAO’s human
capital activities, including diversity programs—which is a personnel
function. PAB has pointed out that this situation does not conform to the
EEOC directive, which states, “. . . the same agency official responsible for
executing and advising on personnel actions may not also be responsible
for managing, advising, or overseeing the EEO pre-complaint or complaint
processes.” An illustrative example of a potential area of conflict is the
OOI Managing Director’s role in reviewing employee performance ratings.
He reviews selected ratings before they are final to identify any potential
EEO concerns, and he then discusses his concerns with the appropriate
SES official. Therefore, if an employee were to file a discrimination
complaint because of a rating, the OOI Managing Director would have
been involved in a review for potential EEO concerns and still would be
responsible for the fair and impartial processing of the complaint.

PAB has recommended that GAO create a separate complaint unit to
process discrimination complaints exclusively and with no responsibility
for personnel, or human capital, issues. GAO has stated that it does not


Page 17                                           GAO-08-1098 Diversity at GAO
              believe that creation of a separate unit is warranted due to the small
              number of discrimination complaints filed each year and that the
              appearance of any conflict of interest is mitigated by GAO contracting out
              its complaint investigations. PAB continues to believe that a structural
              separation between the two administrative functions is warranted. The
              scope of our review did not include a detailed analysis of OOI to determine
              what effect, if any, the consolidation of these functions has had on
              complaint processing.

              Moreover, the small number of formal complaints does not reflect the
              office’s workload, the majority of which involve informal contacts with the
              office and its efforts to resolve issues raised by GAO employees without
              the filing of a formal complaint. For example, in fiscal year 2007, GAO
              employees filed 15 discrimination complaints, while about 130 employees
              made informal contacts to OOI. These contacts concerned a range of
              issues, including appraisals, promotion, work assignments, harassment,
              work environment, feedback, communication, and training.


              While the agency has made progress, the task ahead—further increasing
Conclusions   the diversity of its leadership and workforce—is challenging. It will require
              a concerted effort that must be sustained over time. The small gains in
              minority representation in recent years will not be sufficient for achieving
              a more diverse leadership. To move forward, GAO needs to establish as
              part of its long-term approach a written policy that requires the agency to
              produce an annual plan that evaluates its workforce data and helps
              identify and remove unnecessary barriers to the advancement and hiring
              of women, minorities, and people with disabilities. The agency has taken a
              key step toward this end with its June 2008 Workforce Diversity Plan and
              the Acting Comptroller General’s stated intention to producing a diversity
              plan annually. Because of GAO’s transitional state with an Acting
              Comptroller General, we believe the agency needs to incorporate its
              intention into the order governing OOI’s responsibilities. By formally
              adopting the MD-715 annual review and evaluation process, GAO will be
              better able to evaluate the effects of its initiatives, use the evaluations as a
              basis for any strategic improvements, and hold agency leadership
              accountable.

              In addition, GAO needs to improve its internal complaint processing
              procedures and the procedures related to compiling and reporting on
              those complaints. This will help to avoid recent problems and ensure that
              complaint data provided to others are accurate and reliable.



              Page 18                                            GAO-08-1098 Diversity at GAO
                      GAO may want to monitor the situation related to its decision not to create
                      a separate unit for processing discrimination complaints. Some of the
                      factors that the agency considered in its original decisions seem to have
                      changed, and the agency does face some risk of real or apparent conflicts
                      of position or conflicts of interest. Further, the number of employees
                      making informal contacts to OOI is substantial compared with the number
                      of discrimination complaints.


                      To acquire the information needed to make decisions for managing GAO’s
Recommendations for   diversity efforts and to achieve the intended results in the most timely and
Executive Action      efficient manner, we recommend that the Acting Comptroller General take
                      the following two actions:

                  •   Establish as agency policy the development of an annual diversity plan
                      that includes the evaluation of the agency’s workforce, identifies and
                      removes unnecessary barriers to advancement and hiring, and is
                      comparable to the requirements outlined in EEOC’s MD-715.

                  •   Use information from its annual diversity plan to hold agency leadership
                      accountable for the overall results of the agency’s diversity efforts.

                      To improve the accuracy and completeness of the complaint and
                      discrimination data reported to Congress and others, we recommend that
                      the Acting Comptroller General take the following two actions:

                  •   Revise GAO’s complaint processing procedures order to clarify
                      responsibility for tracking and reporting on the processing of complaints
                      against a person within OOI.

                      Strengthen internal controls for tracking, reviewing, and reporting on
                      complaints.


                      The Inspector General provided GAO with a draft of this report for review
Agency Comments       and comment. GAO generally agreed with our recommendations.
and the IG’s          Regarding the report’s four recommendations on GAO’s diversity planning
                      efforts, the agency did not believe the report had given sufficient credit to
Evaluation            the agency’s foundation for long-term diversity planning and management.
                      Based on further discussion of these comments and the clarification that
                      management intends to continue producing an annual workforce diversity
                      plan in the spirit of EEOC’s MD-715 guidance, we believe that such an
                      annual plan would address the intent of the draft report’s



                      Page 19                                           GAO-08-1098 Diversity at GAO
recommendations. As a result, we revised the final report to contain two
agency planning recommendations to ensure that workforce diversity
plans are developed at least annually and that they are used to help
increase management accountability. Regarding the IG’s two
recommendations on discrimination complaint data and reporting, the
agency agreed to take steps to improve data quality and reporting and
acknowledged taking steps to implement them. GAO also provided
technical corrections that we have incorporated, as appropriate. GAO’s
written comments appear in appendix IV.


As agreed with your office, unless you publicly announce the contents of
this report earlier, we plan no further distribution until 7 days from the
report date. At that time, we will send copies to other interested
congressional committees and GAO’s Acting Comptroller General. We will
also make copies available to others on request.

If you or your staff have any questions about this report, please contact me
at (202) 512-5748 or garciaf@gao.gov. Contact points for GAO’s Offices of
Congressional Relations and Public Affairs may be found on the last page
of this report. IG staff who made major contributions to this report are
listed in appendix IV.

Sincerely yours,




Frances Garcia
Inspector General
GAO




Page 20                                          GAO-08-1098 Diversity at GAO
                 Appendix I: Objectives, Scope, and
Appendix I: Objectives, Scope, and
                 Methodology



Methodology

                 GAO’s Inspector General reviewed GAO’s efforts to promote fair
                 representation of women and minorities in its Senior Executive Service
                 and other senior-level positions. Our objectives were to

             •   determine whether GAO’s diversity programs and initiatives are achieving
                 better representation of women and minorities in top leadership positions
                 (i.e., Senior Level Executive and GS-15 positions, or their equivalent),

             •   evaluate the accuracy and completeness of the fiscal year 2007 complaint
                 and discrimination data reported to Congress, and

             •   assess the independent authority and reporting relationships of the
                 Managing Director of GAO’s Office of Opportunity and Inclusiveness
                 (OOI).

                 To determine whether the GAO diversity-related programs and initiatives
                 are achieving better representation of women and minorities in the Senior
                 Executive Service (SES) and managerial ranks (GS-15) and their
                 equivalent positions, we primarily used (1) the U.S. Equal Employment
                 Opportunity Commission Management Directive 715 (MD-715) checklist,
                 which we modified to eliminate questions applicable only to executive
                 branch agencies; and (2) nine leading diversity management practices
                 identified by experts in the field and discussed in GAO’s report Diversity
                 Management: Expert-Identified Leading Practices and Agency
                 Examples. Executive branch agencies are to use the MD-715 checklist
                 annually to internally evaluate their performance for establishing and
                 maintaining effective diversity programs, such as the essential elements of
                 a model equal employment opportunity program. We used MD-715 and the
                 GAO report on leading practices as criteria for our assessment because
                 they provide policy guidance and standards for establishing and
                 maintaining effective diversity programs. In addition, we obtained and
                 analyzed data from GAO’s Chief Administrative Officer on women and
                 minorities in the SES and manager and equivalent ranks for fiscal years
                 2002 through 2007, data on GAO’s SES candidate program for fiscal year
                 2002 through May 2008, and GAO’s hiring of SES and managers for fiscal
                 year 2003 through May 2008. We also interviewed agency officials, such as
                 the Chief Human Capital Officer and the OOI Managing Director, as well as
                 representatives from the firm that conducted the study on ratings
                 disparities between African-American and Caucasian analysts and an
                 employee group to obtain insight on the agency’s diversity management
                 programs and initiatives. The scope of our audit was limited to GAO’s
                 diversity programs in effect as of January 1, 2008.




                 Page 21                                         GAO-08-1098 Diversity at GAO
Appendix I: Objectives, Scope, and
Methodology




To evaluate the accuracy and completeness of the agency’s fiscal year
2007 complaint and discrimination data and the information systems that
produce that data, we reviewed GAO’s order and procedures on
processing discrimination complaints and reviewed relevant files. Our
assessment also included reviewing supporting documentation for the
data reported in GAO’s annual report to Congress and posted on its
intranet and Web site. In addition, we interviewed staff and managers in
OOI and the Office of General Counsel (GC) to ascertain how complaint
and discrimination data are collected, recorded, and reported. We further
assessed the internal control systems GAO uses to process complaints,
determine processing times, and develop the annual report and Web
postings to ensure the quality of data.

To assess the independent authority and reporting relationships for GAO’s
OOI Managing Director, we examined the agency’s organizational
structure, policies, and procedures and reviewed GAO’s Personnel
Appeals Board’s (PAB) reports on equal employment opportunity
oversight. We also compared how GAO is currently organized to process
discrimination complaints against how executive agencies are required to
process such complaints, as described in EEOC Management Directive
110. In addition, we interviewed the officials in PAB, OOI, and GC to
discuss areas of concern for potential conflicts of interest.

We conducted our work from March 2008 to September 2008 in
accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




Page 22                                         GAO-08-1098 Diversity at GAO
              Appendix II: Selected PAB EEO Oversight
Appendix II: Selected PAB EEO Oversight
              Reports



Reports

              The Employment of Hispanics at GAO. Washington, D.C.: January 29,
              2007.1

              The State of Equal Employment Opportunity at GAO in the 21st
              Century. Washington, D.C.: October 14, 2005.

              Study of GAO’s Office of Opportunity and Inclusiveness. Washington,
              D.C.: February 20, 2004.

              Minority Recruitment at GAO. Washington, D.C.: September 27, 2002.

              Selection Into the Senior Executive Service at GAO (1992-1997).
              Washington, D.C.: September 30, 1998.

              Follow-Up Report to GAO’s Discrimination Complaint Process and
              Mediation Program. Washington, D.C.: August 31, 1998.

              GAO’s Discrimination Complaint Process and Mediation Program.
              Washington, D.C.: September 29, 1995.




              1
                  PAB reports can be located on its Web site, http://www.pab.gao.gov/oversight.php.




              Page 23                                                      GAO-08-1098 Diversity at GAO
                                        Appendix III: Status of Nine Expert-
Appendix III: Status of Nine Expert-Identified
                                        Identified Best Leading Diversity Practices at
                                        GAO


Best Leading Diversity Practices at GAO


                                                                  Not yet adopted                             Level of adoption
Expert-identified leading          Do not        No decision
diversity management              anticipate     made, not in             Will     Plan under Written plan    Partially    Fully
practices                         adopting           use                 adopt    development  complete       adopted     adopted
Top leadership commitment                                                                                                   ;
Diversity as part of an                                                                                          ;
organization’s strategic plan
Diversity linked to performance                                                                                  ;
Measurement                                                                                                      ;
Accountability                                                                                                   ;
Succession planning                                                                                              ;
Recruitment                                                                           ;
Employee involvement                                                                                             ;
Diversity training                                                                                               ;
                                        Source: IG analysis of GAO information.




                                        Page 24                                                        GAO-08-1098 Diversity at GAO
              Appendix IV: Comments from the Office of the
Appendix IV: Comments from the Office of
              Comptroller General of the United States



the Comptroller General of the United States




              Page 25                                        GAO-08-1098 Diversity at GAO
Appendix IV: Comments from the Office of the
Comptroller General of the United States




Page 26                                        GAO-08-1098 Diversity at GAO
Appendix IV: Comments from the Office of the
Comptroller General of the United States




Page 27                                        GAO-08-1098 Diversity at GAO
Appendix IV: Comments from the Office of the
Comptroller General of the United States




Page 28                                        GAO-08-1098 Diversity at GAO
                  Appendix V: IG Contact and Staff
Appendix V: IG Contact and Staff
                  Acknowledgments



Acknowledgments

                  Frances Garcia, (202) 512-5748 or garciaf@gao.gov
IG Contact
                  In addition to the contact named above, Cathy L. Helm (Assistant
Staff             Director) and Keith Steck made significant contributions to this report.
Acknowledgments




                  Page 29                                          GAO-08-1098 Diversity at GAO
             Related GAO Products
Related GAO Products


             Human Capital: Workforce Diversity Governmentwide and at the
             Department of Homeland Security. GAO-08-815T. Washington, D.C.:
             May 21, 2008.

             U.S. Department of Agriculture: Management of Civil Rights Efforts
             Continues to Be Deficient Despite Years of Attention. GAO-08-755T.
             Washington, D.C.: May 14, 2008.

             Human Capital: Workforce Diversity Governmentwide and at the Small
             Business Administration. GAO-08-725T. Washington, D.C.: April 23, 2008.

             NASA: Progress Made on Strategic Human Capital Management, but
             Future Program Challenges Remain. GAO-07-1004. Washington, D.C.:
             August 8, 2007.

             Managing for Results: Enhancing Agency Use of Performance
             Information for Management Decision Making. GAO-05-927. Washington,
             D.C.: September 9, 2005.

             Human Capital: Key Principles for Effective Strategic Workforce
             Planning. GAO-04-39. Washington, D.C.: December 11, 2003.

             Human Capital Management: FAA’s Reform Effort Requires a More
             Strategic Approach. GAO-03-156. Washington, D.C.: February 3, 2003.

             Human Capital: Effective Use of Flexibilities Can Assist Agencies in
             Managing Their Workforces. GAO-03-2. Washington, D.C.: December 6,
             2002.

             A Model of Strategic Human Capital Management. GAO-02-373SP.
             Washington, D.C.: March 15, 2002.

             Management Reform: Elements of Successful Improvement Initiatives.
             T-GGD-00-26. Washington, D.C.: October 15, 1999.




(998266)
             Page 30                                       GAO-08-1098 Diversity at GAO
GAO’s Mission            The Government Accountability Office, the audit, evaluation, and
                         investigative arm of Congress, exists to support Congress in meeting its
                         constitutional responsibilities and to help improve the performance and
                         accountability of the federal government for the American people. GAO
                         examines the use of public funds; evaluates federal programs and policies;
                         and provides analyses, recommendations, and other assistance to help
                         Congress make informed oversight, policy, and funding decisions. GAO’s
                         commitment to good government is reflected in its core values of
                         accountability, integrity, and reliability.

                         The fastest and easiest way to obtain copies of GAO documents at no cost
Obtaining Copies of      is through GAO’s Web site (www.gao.gov). Each weekday, GAO posts
GAO Reports and          newly released reports, testimony, and correspondence on its Web site. To
                         have GAO e-mail you a list of newly posted products every afternoon, go
Testimony                to www.gao.gov and select “E-mail Updates.”

Order by Mail or Phone   The first copy of each printed report is free. Additional copies are $2 each.
                         A check or money order should be made out to the Superintendent of
                         Documents. GAO also accepts VISA and Mastercard. Orders for 100 or
                         more copies mailed to a single address are discounted 25 percent. Orders
                         should be sent to:
                         U.S. Government Accountability Office
                         441 G Street NW, Room LM
                         Washington, DC 20548
                         To order by Phone: Voice:      (202) 512-6000
                                            TDD:        (202) 512-2537
                                            Fax:        (202) 512-6061

                         Contact:
To Report Fraud,
Waste, and Abuse in      Web site: www.gao.gov/fraudnet/fraudnet.htm
                         E-mail: fraudnet@gao.gov
Federal Programs         Automated answering system: (800) 424-5454 or (202) 512-7470

                         Ralph Dawn, Managing Director, dawnr@gao.gov, (202) 512-4400
Congressional            U.S. Government Accountability Office, 441 G Street NW, Room 7125
Relations                Washington, DC 20548

                         Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
Public Affairs           U.S. Government Accountability Office, 441 G Street NW, Room 7149
                         Washington, DC 20548




                         PRINTED ON      RECYCLED PAPER
